Report No. D-2011-RAM-005              November 29, 2010




         American Recovery and Reinvestment Act
     Projects-Family Housing Renovations at Fort Myer
                    Military Community
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audits/reports or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                   Federal Acquisition Regulation
FBO                   Federal Business Opportunities
FMMC                  Fort Myer Military Community
FPDS                  Federal Procurement Data System
FSRM                  Facilities Sustainment, Restoration, and Modernization
IMCOM                 U.S. Army Installation Management Command
OACSIM                Office of the Assistant Chief of Staff for Installation Management
OMB                   Office of Management and Budget
UFC                   Unified Facilities Criteria
USACE                 U.S. Army Corps of Engineers
                                  INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                    400 ARMY NAVY DRIVE 

                               ARLINGTON, VIRGINIA 22202-4704 





                                                                      November 29, 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
               (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               AUDITOR GENERAL DEPARTMENT OF THE ARMY

SUBJECT: American Recovery and Reinvestment Act Projects-Family Housing
         Renovations at FOli Myel' Military Community
         (RepOli No. D-2011-RAM-005)

We are providing this repOli for your information and use. We performed this audit in
response to the requirements of Public Law 111-5, "American Recovery and
Reinvestment Act of2009," Febmary 17,2009. DOD Directive 7650.3 requires that
recommendations be resolved promptly. We considered management comments on a
draft of this report from the U.S. Almy Materiel Command, the U.S. Army Contracting
Command, and the U.S. Army Installation Management Command when preparing the
final report. No additional comments are required.

We appreciate the cOUliesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                       ~~~~  Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2011-RAM-005 (Project No. D2009-D000AB-0288.002)                     November 29, 2010



               Results in Brief: American Recovery and
               Reinvestment Act Projects—Family Housing
               Renovations at Fort Myer Military Community
                                                           clauses in one delivery order because of an
What We Did                                                oversight. However, the Army Contracting
                                                           Command corrected the errors by modifying
Our overall objective was to determine whether             the contract and delivery order to change the
DOD appropriately planned and implemented                  line of accounting and add the required
Recovery Act projects and whether the efforts              contract clauses.
of the Military Services and Defense agencies
complied with Recovery Act requirements,
Office of Management and Budget guidance,               What We Recommend
the Federal Acquisition Regulation, and DOD             		 We recommend that the Commander,
implementing guidance. Specifically, we                     IMCOM, direct FMMC personnel to
reviewed the planning, funding, contracting, and            prepare, review, and certify cost estimates in
initial execution of two family housing projects            accordance with the DOD Unified Facilities
at Fort Myer Military Community (FMMC) to                   Criteria.
renovate Noncommissioned Officers Quarters,             		 We recommend that the Commander, U.S.
valued at $1.33 million.                                    Army Contracting Command, develop
                                                            procedures to ensure Recovery Act funds
What We Found                                               and clauses are applied to Recovery Act
FMMC personnel generally justified, planned,                contracts and delivery orders.
funded, contracted for, and executed the two
Family Housing Facilities Sustainment,                  FMMC Family Housing Restoration Project
Restoration, and Modernization (FSRM)
projects reviewed in accordance with Office of
Management and Budget guidance, except for
the following instances.
		 U.S. Army Installation Management
    Command (IMCOM) personnel at FMMC
    did not comply with DOD guidance to
    prepare, review, or certify cost estimates on
    two FSRM projects. The personnel
    prepared the cost estimates using RS Means
    estimating software and then inflated the
    estimate approximately 20 to 30 percent             Source: IMCOM
    without supporting documents for
    unforeseen site conditions. This occurred           Management Comments and
    because FMMC personnel believed cost
    estimating software results were too low.           Our Response
    As a result, cost estimates were inflated and       The Executive Deputy to the Commanding
    may have prevented other worthy projects            General, U.S. Army Materiel Command; the
    from receiving requested funding.                   Executive Director, U.S. Army Contracting
		 Army Contracting Command personnel at               Command; and the Commander, IMCOM,
    FMMC did not use the correct Recovery Act           agreed with the recommendations, and no
    line of accounting in one contract and did          additional comments are required.
    not include required Recovery Act contract

                                                    i
Report No. D-2011-RAM-005 (Project No. D2009-D000AB-0288.002)         November 29, 2010



Recommendations Table

        Management                Recommendations               No Additional Comments
                                 Requiring Comment                     Required
U. S. Army Installation                                     1
Management Command
U.S. Army Contracting                                       2
Command




                                           ii
Table of Contents

Introduction		                                                                1     


       Objective                                                              1     

       Recovery Act Background                                                1

       Recovery Act Requirements                                              1

       Recovery Act Contract Requirements                                     2

       OMB Recovery Act Guidance                                              3

       DOD Recovery Act Program Plans                                         3

       Unified Facilities Criteria                                            3

       Installation Management Command Mission                                4

       Fort Myer Military Community                                           4

       Internal Controls Not Effective for Cost Estimating and Contracting    4


Finding. FSRM Projects at Fort Myer Military Community Contain Internal 

Control Weaknesses                                                            6


       Planning, Funding, and Execution of FMMC Family Housing Projects       6

       Conclusion                                                            10     

       Recommendations, Management Comments, and Our Response                10 


Appendices

       A. 	Scope and Methodology 	                                           12 

              Prior Coverage                                                 13     

       B. Recovery Act Criteria and Guidance 	                               14 


Management Comments 	                                                        16 


       U.S. Army Materiel Command 	                                          16 

       U.S. Army Contracting Command 	                                       17 

       U.S. Army Installation Management Command 	                           19 

Introduction
Objective
The primary objective of the audit was to determine whether DOD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act, Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009, and subsequent
related guidance. For this audit, we reviewed the planning, funding, contracting, and
initial execution of two family housing renovation projects at Fort Myer Military
Community (FMMC), valued at $1.33 million, to ensure that the efforts of the Military
Services and Defense agencies complied with Recovery Act requirements, OMB
guidance, the Federal Acquisition Regulation (FAR), and DOD implementing guidance.
See Appendix A for a discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by
                  spurring technological advances in science and health.
              (4) To invest		 in transportation, environmental protection, and other
                  infrastructure that will provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize
                  and avoid reductions in essential services and counterproductive state
                  and local tax increases
                  .        .         .         .       .        .       .
       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We have grouped these requirements into the following four phases:
(1) planning, (2) funding, (3) execution, and (4) tracking and reporting. The Recovery
Act requires that projects be properly planned to ensure the appropriate use of funds.
Review of the funding phase is to ensure the funds were distributed in a prompt, fair, and
reasonable manner. Reviews of the project execution phase is to ensure that contracts
awarded with Recovery Act funds were transparent, competed, and contain specific FAR
clauses; that Recovery Act funds were used for authorized purposes; and that instances of
fraud, waste, error, and abuse were mitigated. Review of the execution phase also
ensures that program goals were achieved, including specific program outcomes and


                                                   1


improved results on broader economic indicators; that projects funded avoided
unnecessary delays and cost overruns; and that contractors or recipients of funds reported
results. Review of the tracking and reporting phase ensures that the recipients’ use of
funds was transparent to the public and that benefits of the funds were clearly, accurately,
and timely reported.

Recovery Act Contract Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

       buying American construction material,
       protecting contractor whistleblowers,
       publicizing contract actions,
       reporting, and
       giving the Government Accountability Office and agency Inspectors General
        access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

       identify the action as funded by the Recovery Act,
       post pre-award notices for orders exceeding $25,000,
       describe supplies in a clear narrative to the general public, and
       provide the rationale for awarding any contracting actions that were not both
        fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables




                                             2


FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DOD and the Components issue their implementation
guidance. OMB has issued 11 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DOD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DOD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization (FSRM); Homeowners Assistance; Military
Construction; Near Term Energy-Efficient Technologies; and U.S. Army Corps of
Engineers (USACE) Civil Works. The values of the six programs are shown in Table 1.
     Table 1. DOD Agency-Wide and Program-Specific Recovery Act Programs
                             Program                          Amount
                                                            (in millions)
     Energy Conservation Investment                               $120
     Facilities Sustainment, Restoration, and Modernization      4,260*
     Homeowners Assistance                                         555
     Military Construction                                       2,185
     Near Term Energy-Efficient Technologies                       300
     U.S. Army Corps of Engineers Civil Works                    4,600
        Total                                                 $12,020*
*
  On August 10, 2010, Public Law 111-226, Title III, “Rescissions,” rescinded $260.5 million of funds
from DOD Operations and Maintenance Accounts supporting the Recovery Act. This reduced the DOD
Recovery Act FSRM amounts to approximately $4 billion and total DOD Agency-Wide and Program-
Specific Recovery Act program funding to approximately $11.76 billion.

The Recovery Act divides the approximately $12 billion among 32 DOD and USACE
line items of appropriations.

Unified Facilities Criteria
Unified Facilities Criteria (UFC) 3-700-02A, “Construction Cost Estimates,” March 1,
2005, provides detailed guidance for preparing Government cost estimates. The UFC
provides planning, design, construction, sustainment, restoration, and modernization
criteria, and applies to the Military Departments, the Defense agencies, and DOD Field
Activities.




                                                   3


Installation Management Command Mission
The Installation Management Command (IMCOM) is a single organization with six
regional offices that oversees all facets of installation management such as construction;
barracks and Family Housing; public works; and installation funding. IMCOM’s mission
is to provide standardized, effective, and efficient services, facilities, and infrastructure to
soldiers, families, and civilians for an Army engaged in conflict.

Fort Myer Military Community
FMMC is a U.S. Army Garrison managed by IMCOM, and includes Fort Myer, Virginia,
and Fort McNair, Washington, D.C. The FMMC serves two higher headquarters. It is
responsible to the Military District of Washington for mission support and to IMCOM for
fiscal and administrative purposes. FMMC had 17 Army FSRM Recovery Act projects
that were valued at $21.28 million. Of those 17 projects, we reviewed two Army Family
Housing projects valued at $1.33 million. Project 38811 at Fort Myer included the
removal and replacement of copper roof decks, gutters and downspouts, and damaged
roof slate on select Senior Noncommissioned Officer family housing. Project 38807 at
Fort McNair included refurbishing and replacing front and rear porches and installing
French drains on select Senior Noncommissioned Officer family housing. Table 2 shows
the appropriated amount and the award amount for both projects.

                        Table 2. FMMC Recovery Act Programs
 Contract Number            Project     Award      Appropriated                 Award
                         Number/Title    Date        Amount                     Amount

W91QV1-09-C-0053         38807, Renovate      9/2/2009         $780,000         $379,500
                         Exteriors and
                         Repair Windows
W91QV1-05-D-0018         38811, Renovate      7/16/2009        $550,000         $503,102
Delivery order OF65      Exteriors and
                         Repair Porches



Internal Controls Not Effective for Cost Estimating and
Contracting
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
July 29, 2010, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses on two Recovery Act funded projects at FMMC.

    		 IMCOM internal controls at FMMC for planning, funding, and execution were
        inadequate to ensure the Executive Management Office and Housing Directorate
        documented its methodology for the preparation, review, and certification of
        project cost estimates.


                                               4

   		 U.S. Army Contracting Command internal controls for FMMC contracting were
       inadequate to prevent issuance of Recovery Act contract actions without verifying
       that those actions contained proper funding citations and clauses.

Implementing Recommendations 1 and 2 will improve FMMC planning, funding, and
execution controls. We will provide a copy of the report to the senior official responsible
for internal controls at FMMC.




                                             5


Finding. FSRM Projects at Fort Myer Military
Community Contain Internal Control
Weaknesses
FMMC personnel generally justified, planned, funded, contracted for, and executed the
two FSRM projects reviewed in accordance with OMB guidance, except for the
following instances.

		 IMCOM personnel at FMMC did not comply with the Unified Facilities Criteria to
    prepare, review, or certify cost estimates on the two Family Housing FSRM projects.
    IMCOM personnel stated that they prepared the cost estimates using RS Means
    estimating software and then inflated the estimate approximately 20 to 30 percent
    without supporting documentation for unforeseen site conditions.
		 Army contracting personnel, FMMC, did not use the correct funding line of
    accounting in one contract and did not include required Recovery Act contract clauses
    in one delivery order. However, management took corrective action by issuing a
    modification to the contract and delivery order to change the line of accounting and
    add the required contract clauses.

    IMCOM personnel . . .          This occurred because the IMCOM cost estimator at
  prepared the cost estimate       FMMC believed that cost estimating software results
   . . . and then inflated . . .   were usually very low and must be increased to meet the
    approximately 20 to 30         regional trend. Contracting personnel stated that the use
           percent . . .           of the wrong funding line of accounting and the failure
                                   to include Recovery Act contract clauses in the two
contract actions reviewed was an oversight. As a result of these weaknesses in FMMC
internal controls, a cost estimate was inflated and may have prevented other worthy
projects in states with high unemployment rates from receiving requested funding. Also,
in order to meet Recovery Act goals, contracting officials must ensure adequate controls
are in place to correctly account for Recovery Act funds expended and ensure that
required clauses are included in contracts awarded.

Planning, Funding, and Execution of FMMC Family
Housing Projects
The planning, funding, and initial execution of two FSRM Family Housing projects at
FMMC generally complied with Recovery Act requirements. However, we did find
opportunities for improvement.

Planning for Family Housing Renovations
FMMC personnel generally justified and planned Recovery Act projects. We reviewed
the IMCOM Project Prioritization System report; Department of the Army Form 4283,
“Facilities Engineering Work Request”; and DD Form 1391, “Military Construction
Project Data,” for two FSRM Family Housing projects to renovate noncommissioned


                                             6


officer quarters. The related DD Forms 1391 adequately explained the projects,
requirements, the current situation, and the impact and justifications for renovating the
quarters. However, we did have concerns regarding the cost estimates for both projects.
FMMC provided no supporting documentation for the independent government cost
estimates, no support for a detailed cost analysis, and no support that the cost estimates
were reviewed or certified.

Cost Estimates Inflated and Lacked Support
IMCOM cost engineers in the Executive Management Office and Housing Directorate
did not comply with the UFC requirements to prepare, review, and certify cost estimates
on two projects. Rather, IMCOM personnel stated that they prepared the cost estimates
using RS Means1 estimating software and then inflated the estimate approximately 20 to
30 percent without supporting documentation for unforeseen site conditions.

We reviewed the cost estimates for the projects. Even though the estimated cost of each
component of the work was described in detail, the cost engineer did not explain the basis
of the unit cost used to calculate total cost. In the construction industry, the costs are
estimated using historical pricing for similar work or RS Means Cost Books for detailed
estimation of construction work. We requested IMCOM and FMMC contracting
personnel to provide the approved cost estimates, methodology, and supporting
documentation used for cost estimating. The cost engineer who prepared the estimate
stated that unit costs were derived from a combination of sources, such as historical costs
for prior Government and commercial work of a similar nature, use of RS Means Cost
Books, and personal experience. The cost engineer noted that RS Means data were
usually very low and must be increased to meet the regional trend. The cost engineer
also stated that the estimate took into account an absolute worst case scenario for the
scope of work based on unforeseen circumstances and the age of the quarters.

Unified Facilities Criteria for Cost Estimates
Although IMCOM provided cost estimates for the two projects, the command did not
provide approved cost estimates and the related back-up data required by UFC 3-700-
02A. Section 2-2, “Responsibility for Preparation and Review,” states that the cost
engineer must be accountable for the completeness, quality, accuracy, and reasonableness
of the cost estimate. This section also states that the estimate should be reviewed for the
purpose of confirming the validity of the assumptions and the logic used in estimating the
cost of construction tasks and that the review should always include a check of the
quantities, unit prices, and arithmetic. Section 3.7, “Cost Estimate Format and
Supporting Documentation,” states the cost engineer should be mindful of the
documentation necessary to support the cost estimate submission requirements specified
for each phase of project development. Chapter 4, “Composition of Government
Estimates,” Figure 4.1, illustrates the composition of a Government estimate stating that
Government cost estimate back-up data are an integral part of the cost estimate


1
  RS Means is a leading supplier of construction cost information. In addition to publication of annual
construction cost data books, RS Means also offers electronic cost databases and software. They provide
localized constructions costs for many states including Maryland and Virginia.


                                                    7

presentation. Section 4-2., “Government Estimate of Contract Cost,” requires the names
and signatures of those individuals responsible for the preparation, review, submittal, and
approval of the cost estimate on the signature page. The signature page should also
contain the total amount of the estimated costs and the number of amendments included
in the estimate so that there will be no question as to the approved amount.

RS Means Cost Data
We disagreed with the IMCOM methodology of increasing RS Means cost data in
calculating the Government cost estimate. RS Means Construction Cost Data Books are
widely used in Government and industry for construction cost estimation. The 2010
edition of the books, among other features, provides city cost indexes and location factors
covering over 930 three-digit zip codes in the U.S. and selected locations in Canada.
Additionally, all RS Means cost data titles include free quarterly updates via e-mail—a
comprehensive quarterly report on market indicators and construction price trends and a
free hotline to help in cost estimation. The cost engineer who prepared the inflated
estimate could provide no corroborating evidence that his methodology in preparing the
cost estimate was more accurate. Rather it appears that an arbitrary inflation factor was
used. As a result, we did not consider Government cost estimates for the two projects
prepared by the Government cost engineers to be reliable. The contracts awarded to
perform both projects were less than the amount appropriated for the projects as shown in
Table 3, resulting in $349,198 of additional money that could be used for other Army
FSRM projects.
            Table 3. Army FSRM Family Housing Projects at FMMC
Project Number       Appropriation  Government       Contract  Available for
                                   Cost Estimate      Action    Other Uses
38807-Fort McNair       $780,000      $676,706       $477,700   $302,300
38811-Fort Myer         $550,000      $503,101       $503,102    $ 46,898
  Total                $1,330,000    $1,179,807      $980,802    $349,198

Proper Funding of Family Housing FSRM Projects
In May 2009, the Assistant Secretary of the Army (Financial Management and
Comptroller) properly distributed Recovery Act funds2 totaling $3.55 million to the
Commander, IMCOM, for approved Family Housing Recovery Act projects. On
May 22, 2009, a funding authorization document transferred the full distribution of the
appropriated Army Family Housing funds, $1.4 million, to the Director, IMCOM
National Capital Region. IMCOM issued a funding authorization document dated
June 10, 2009, transferring $1.33 million to the Commander, U.S. Army Garrison, Fort
Myer, for the two FMMC Recovery Act projects reviewed. The funding received for
those projects was to repair, replace, and renovate Senior Noncommissioned Officers
Quarters at FMMC. Specifically, $780,000 was designated to renovate exteriors and
repair windows on quarters located at Fort McNair and $550,000 was designated to
renovate exteriors and repair porches on quarters located at Fort Myer.

2
    The $3.55 million was from the Army Family Housing, Operations and Maintenance, appropriation.


                                                    8


Project Execution
We reviewed the presolicitation and award of two Family Housing FSRM projects at
FMMC. Project Number 38807 on contract W91QV1-09-C-0053 was for eight Senior
Noncommissioned Officers Quarters on Fort McNair. The 8 quarters include 2 single
houses and 6 duplexes for a total of 14 dwelling units. Project Number 38811 on
delivery order W91QV1-05-D-0018 (0F65) was for nine Senior Noncommissioned
Officers Quarters on Fort Myer. The 9 quarters include 1 single house and 8 duplexes for
a total of 17 dwelling units. These houses are historic category 1 single family houses
built in 1903. The projects were to repair or replace deteriorated wood and vinyl exterior
siding, gutters, banisters and railings, and fascia and painting on porches. In addition,
repairs were needed for exterior doors and windows to include window trim, valances
and transom windows, metal railings, lattice, screen, and quarter round molding. These
repairs and replacements were necessary and essential to prevent further structural
deterioration, improve housing components to meet current minimum codes and
standards, eliminate environmental hazards, realize the full life expectancy of the
quarters, reduce energy consumption, eliminate substandard living environment, and
improve quality of life for the residents.

Presolicitation Notices
                               To ensure the transactions related to the FSRM Recovery
     The language in the
                               Act projects at FMMC were transparent, Army contracting
    presolicitation notices
                               personnel posted presolicitation notices on the Federal
     met the intent of the
                               Business Opportunities (FBO) Web site. The language in
    Recovery Act project.
                               the presolicitation notices met the intent of the Recovery
Act project. The synopsis in the presolicitation notice for project number 38807 clearly
explained the nature of the work and informed the public that this was a HUB Zone set-
aside for small businesses. The synopsis in the presolicitation notice for project number
38811 explained the nature of the work and informed the public that this opportunity was
only available to the contractor under roofing requirements contract W91QV1-05-D-0018
and that the delivery order would be awarded to Verrazano Contracting Company, Inc.

Project Number 38807, FSRM Family Housing Project (Fort McNair)
Army contracting personnel competitively solicited offers through an invitation for bid
and received four offers. On September 2, 2009, the U.S. Army Contracting Command
awarded a firm-fixed-price contract (W91QV1-09-C-0053) to GOVCON Inc. for
$379,500.3 The contract was a 100 percent set-aside for HUB Zone small business. The
contract contained the required Recovery Act clauses; however, the contract incorrectly
cited funding code line of accounting 2190725, which is Family Housing Operation and
Maintenance, Army. The correct funding code line of accounting for Recovery
Act should be 2190726, which is for Family Housing Operation and Maintenance-
Recovery Act, Army. After we had informed the contracting officer of the mistake in



3
 Subsequently, the contract value was increased to $477,700 (modification P00001 on February 3, 2010
for $5,000 and modification P00003 on April 16, 2010, for $93,200).


                                                  9

January 2010, the contracting officer corrected the line of accounting to 2190726, issuing
modification P00002 on February 24, 2010.

Project Number 38811, FSRM Family Housing Project (Fort Myer)
On July 16, 2009, the U.S. Army Contracting Command issued delivery order W91QV1-
05-D-0018 (0F65) for $503,101.57 to Verrazano Contracting Company, Inc. The
delivery order was issued from contract W91QV1-05-D-0018, which was competitively
awarded through sealed bids on August 23, 2005. This was a Section 8(a) set-aside and
the appropriate Recovery Act funding was included in the delivery order. However, the
delivery order did not contain any of the required Recovery Act contract clauses.
Contracting personnel identified the deficiency and on September 3, 2009, the
contracting officer issued modification 01, which added the Recovery Act clauses.

Conclusion
Overall, the two projects reviewed generally complied with Recovery Act guidance.
However, IMCOM cost engineers did not adhere to UFC requirements when preparing
their cost estimates. Specifically, IMCOM personnel could not provide the related back-
up data to corroborate the validity of the cost engineer’s methodology in preparing the
cost estimates nor were the cost estimates certified. The inflation factor used to increase
the RS Means cost data used to calculate the Government cost estimate was arbitrary and
not supported; therefore, we do not consider the cost estimates reliable. We recommend
that the Government cost engineers prepare, review, and certify cost estimates in
accordance with the UFC.

The two projects reviewed were solicited and competitively awarded. However, we
consider the incorrect funding line of accounting on contract W91QV1-09-C-0053 and
the award of delivery order W91QV1-05-D-0018 (0F65) without required Recovery Act
contract clauses to be internal control weaknesses. We believe improvements to the
internal controls are needed to prevent these errors in the future. The Army Contracting
Command needs to develop procedures to ensure Recovery Act-specific funds and
contract clauses are applied to Recovery Act contracts and delivery orders.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Commander, U. S. Army Installation Management
Command, direct the Executive Management Office and Housing Directorate to
prepare, review, and certify cost estimates in accordance with the Unified Facilities
Criteria 3-700-02A, “Construction Cost Estimates,” March 1, 2005.

Management Comments
The Commander, U.S. Army Installation Management Command, agreed with the
recommendation and stated that compliance needs to occur in preparation of job
estimates with the Unified Facilities Criteria. The Commander noted that he has directed
Fort Myer Military Community personnel to prepare, review, and certify cost estimates in


                                            10


accordance with Unified Facilities Criteria and include back-up data for the Government
cost estimate and the names and signatures of individuals responsible for the preparation,
review, submittal, and approval of the cost estimate on the signature page. The
Commander also noted that future job estimates that vary from the Unified Facilities
Criteria should be supported with proper documentation to support that variance.

Our Response
The comments of the Commander, U.S. Army Installation Management Command, are
responsive, and no additional comments are required.

2. We recommend that the Commander, U.S. Army Contracting Command,
develop procedures to ensure Recovery Act-specific funds and contract clauses are
applied to Recovery Act contracts and delivery orders on Fort Myer Military
Community Recovery Act projects.

Management Comments
The Executive Deputy to the Commanding General, U.S. Army Materiel Command,
agreed with the U.S. Army Contracting Command’s response. The Executive
Director, U.S. Army Contracting Command, responding for the Commander, U.S. Army
Contracting Command, agreed with the recommendation and stated that Office of
Management and Budget and Deputy Assistant Secretary of the Army (Procurement)
policy and guidance regarding proper execution of Recovery Act funded contract actions
was disseminated throughout the Army Contracting Command, the Expeditionary
Contracting Command, the Mission and Installation Contracting Command, and the
seven contracting centers. In addition, the Mission and Installation Contracting
Command released internal guidance and provided assistance to their Directorates of
Contracting on specific procedures relating to the Recovery Act, including the proper use
of Recovery Act clauses. The Executive Director noted that actions that did not contain
the Recovery Act clauses at the time of award were modified to incorporate the clauses.
The Mission and Installation Contracting Command Contracting Directorates at Fort
Myer and Fort Belvoir instituted a review process that mandated the use of the Recovery
Act checklist that was issued by the Recovery Act Transparency Board. To ensure
compliance, an internal e-mail will be sent to the Army Contracting Command policy
points of contact reemphasizing the use of Recovery Act clauses. This process will be in
place by October 30, 2010.

Our Response
The comments of the Executive Director, U.S. Army Contracting Command, are
responsive, and no additional comments are required.




                                            11


Appendix A. Scope and Methodology
We conducted this audit from October 2009 through August 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope
We selected two FSRM Recovery Act projects at FMMC with an estimated total cost of
$1.33 million. These projects were to repair, replace, and renovate 17 Senior Non-
commissioned Officers Quarters at FMMC. The projects were necessary and essential to
prevent further structural deterioration, improve housing components to meet current
minimum codes and standards, eliminate environmental hazards, realize the full life
expectancy of the quarters, reduce energy consumption, eliminate substandard living
environment, and improve quality of life for the residents. Our review included
interviewing IMCOM cost engineers and Army staff at FMMC, Department of Public
Works, and U.S. Army Contracting Command. We also reviewed requirements,
contracting, and financial documentation dated from August 2005 through April 2010 at
FMMC.

Methodology
Our overall audit objective was to evaluate DOD’s implementation of plans for the
Recovery Act of 2009. To accomplish our objective, we audited the planning, funding,
execution, and tracking and reporting of Recovery Act projects to determine whether
Army efforts complied with Recovery Act requirements, OMB guidance, the FAR, and
DOD implementing guidance. Specifically, we determined whether:

      the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
      funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding); and
      contracts contained required Recovery Act FAR clauses (Project Execution).

Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DOD Office of Inspector General analyzed all DOD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. We selected most audit projects and
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment, and other quantitatively developed risk indicators. We used
information collected from all projects to update and improve the risk assessment model.
We selected 83 projects with the highest risk rankings; auditors chose some additional




                                           12


projects at the selected locations. The FMMC projects valued at $1.33 million were
judgmentally selected to provide Army and Army Family Housing FSRM coverage.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by U.S. Army Corps of Engineers.

Use of Computer-Processed Data
We used computer-processed data to perform this audit. Specifically, we used posted
notices on the FBO Web site ( http://www.fedbizopps.gov ) in meeting our audit
objectives. We tested the accuracy of the data by comparing the project data reported on
the FBO Web site with documents in the contract file. Our audit focused on the reporting
of contract actions on specific Army projects. From these procedures, we concluded that
the DOD data were sufficiently reliable for our audit purposes.

Use of Technical Assistance
An engineer from the Technical Assessment Directorate, DOD Office of Inspector
General, assisted in the audit. The engineer supported the team in evaluating the need for
the two FMMC FSRM projects selected for review.

Prior Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                           13


Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list):

   		 U.S. House of Representatives Conference Committee Report 111-16, “Making
       Supplemental Appropriations for Job Preservation and Creation, Infrastructure
       Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
       State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
       2009, and for Other Purposes,” February 12, 2009

   		 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
       February 17, 2009

   		 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
       Recovery and Reinvestment Act of 2009,” February 18, 2009

   		 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
       Investment Act of 2009 Appropriations,” February 25, 2009

   		 White House Memorandum, “Government Contracting,” March 4, 2009

   		 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
       Funds,” March 20, 2009

   		 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009,” April 3, 20091

   		 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
       With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   		 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
       Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   		 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
       of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
       June 22, 20092

   		 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
       with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   		 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
       September 11, 2009




                                           14

    		 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
        Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
        Clause 52.204-11,” September 30, 20092

    		 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
        and Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of
        Job Estimates,” December 18, 20092

    		 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
        and Reinvestment Act,” March 22, 20102

    		 White House Memorandum, “Combating Noncompliance With Recovery Act
        Reporting Requirements,” April 6, 20102

    		 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
        Compliance under the American Recovery and Reinvestment Act,” May 4, 20102

    		 OMB Memorandum M-10-34, “Updated Guidance on the American Recovery
        and Reinvestment Act,” September 24, 20102




End Notes
1
 Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.



                                                     15


Department of the Army Comments






                                      DEPARTMENT OF THE ARMY
                                HEADQUARTERS, U.S. ARMY MATERIEL COMMAND
                                           i301 CHAPEK ROAD
                                       FORT BELVOfR, VA 220lI0-5527



      AMCIR
                                                                           28 SEP 2010


      MEMORANDUM FOR DODIG, ATIN: • • • • • • • • • • • 400 Anny Navy
      Drive, Arlington, VA 22202-4704

      SUBJECf: Command Reply to DODIO Draft Report: American Recovery and Reinvestment
      Act ProjeclS , Family Housing Renovations at Fon Myer Military Community, 27 August 2010
      (D2009-DOOOAB-0288.002) (00963)


      1. The U.S . Army Materiel Command (AMe) has reviewed the subject draft report and response
      provided by U.S. Army Contracting Command (ACe). AMC endorses the ACe response.

      2. The AMC point of contact is • • • • • • • • • • • • • • • • • • •




                                                   ~~~
                                 Click to add JPEG file
      End
                                                     ~~:0:1
                                                         Commanding




                                      Printed on   @   Recycled Paper




                                                                  16
                                  DEPARTMENT Df THE ARMY
                             U.S. ARMY CONTRACTING COMMAND
                                        MOl CfW'fK ROAD
                                   FORT 8n.VOIA, VA 2201006521


                                                                             'SEP 16 2010
AMSCC-IR


MEMORANDUM FOR                           Director. Internal Review and Audit Compliance
Office, Headquaners, U.S. Anny Materiel Command, 9301 Chapek Road. Fon Belvoir, VA
22060

SUBJECT: OODIG Draft Audit Report, American Recovery and Reinvestment Act Projects­
Family Housing Renovations at Fan Myer Military Community (Proj~l No. D2009-0000AB­
0288.002) (00963)


I. References:

  a. Memorandum. Department of Defense Inspector General, 27 August 2010,
SUbject: same as above.

                          Click to add JPEG file
   b. Draft Report, Department of Defense lnspeclor General , undated. subject: same
as above.

2. The U.S. Anny Contracting Command (ACe) has reviewed reference tb and provides
comments to reconunendation 2 as an enclosure.

3. The ACe point of contact is




Encl
                                          cL-(;?{;2­
                                               JEFFREY P. PARSONS
                                              Executive Director




                                                          17
                                    DODIG Final Report
                           American Recovery and Reinvestment Act
                           Projects-Family Housing Renovations at
                                Fort Myer Military Community
                             Project No. D2(}()9-DOOOAB-0288.002


RecommendatioD 2. DODIG reoommended that the Conunander. U.S. Army Contracting
Command, develop prcxedures to ensure Recovery Act·specific funds and contract clauses are
applied to Recovery Act contracts and delivery orders on Fort Myer Military Community
Recovery Act projects.

Ace Commeats: Concur. Office of Management and Budget (OMB) and Deputy Assistant
Secretaty of the Anny (Procun:ment) (DASA-P) policy and procedural guidance regaMing
proper execution of Recovery Act funded contract actions was disseminated throughout the
Headquarters, Anny Contracting Command (ACC), Expeditionary Contracting Command
(ECC), Mission and InstaUation Contracting Command (MICC), and the seven Contracting
Centers, through VTCs, numerous emails. and information papers that included proper use of
Recovery Act clauses. These processes and procedures were well documented and provided the
proper oversight and guidance required for Recovery Act activities. As soon as updated and/or
new Recovery Act infonnation is generated. it is released throughout ACe. as there is
                          Click to add JPEG file
continuous communication flow throughout the lifecycle of Recovery Act reponing.
Fwthennore. the MlCC has released internal guidance and provided assistance to their individual
Directorates of Contracting on specific procedures relaling to all aspects of the Recovery Act
and the reponing thereof. including the proper use of the Recovery Act related clauses. The
commencement of the reporting process further raised awareness of the nced. to include
Recovery Act clauses. Actions that did not contain the clauses at time of award were modified to
incorporate the clauses. To ensure compliance with new awards. MICC Contracting Directorates
at Fort Myer and Fon Belvoir instituted a review process that mandated use of the Recovery Aa
checklist that was issued by the Recovery Act Transparency (RAT) Board. In order to ensure
compliance. an internal email will be sent to ACC policy POCs referencing the applicable DASA
(P) Memos, reemphasizing the use of the Recovery Act clauses. This process will be in place by
30 October 2010.




                                                                                           Enc\




                                                         18
                               DEPARTMENT OF THE ARMY
                          us ARMYINSTALLAnON MANAGEMENT COMMAND
                                2511 JEFFERSON DAVIS HIGHWAV
                                   ARl.INGTON. VA 22:l0Hg2e



IMCG


MEMORANDUM FOR Inspector General, Department of Defense, 400 Army Navy
Drive, Arlington, Virginia 22202-4704

SUBJECT: Command Reply for DODIG Draft Report, Audit of American Recovery and
Reinvestment ACI Projecls-Family Housing Renovations at Fort Myer Mlillary
Community (Project D2009-DOOOAB-0288.002)


 1. U.S. Army Installation Management Command (IMCOM) has reviewed the subject
report. All of us are pleased with the overall finding that projects were generally properly
justified , planned, funded, contracted and executed. The IMCOM comments are
provided at enclosure 1. We concur with the audit recommendation and have Informed
Fort Myer Military Community Ihat compliance needs to occur in preparation of job
estimates with the Unified Facilities Criteria (UFC). They are to prepare, review and
                           Click to add JPEG file
certify cost estimates in acco rdance with UFC and have signatures of responsibility from
those individuats who prepared Ihem. If there Is a variance from the UFC It Is required
that documents supporting that variance be on file .

2. The Internal Review




Ene1
                                               LIeutenant General, USA
                                               Commanding




                                                              19
             U.S. Army Inslallation Management Command Comments
  DODIG Drall Reporl, Audil of American Recovery and Reinvestment Act ProJects­
       Family Housing Renovations at Fori Myer Military Community (FMMC)
                            (D2009·DOOOAB·0288.002)

Recommendation 1:

1. Recommend that the Commander, U. S. Army Installation Management
Command, direct the Executive Management Office and Housing Directorate to
prepare, review, and certify cost estimates in accordance with the Unified Facilities
Criteria 3· 700·02A, ·Construction Cost Estimates," March 1, 2005.

IMCOM Command Comments to Recommendation 1:

Concur. We concur with the audit recommendation and agree that compliance needs to
occur in preparation of job estimates with the Unified Facilities Criteria (UFC). We have
directed FMMC personnel to prepare, review and certify cost estimates In accordance
wilh the UFC, specifically, to Include back up data for the government cost estimate and
the names and signatures of those individuals responsible for the preparation, review,
submittal. and approval of the cost estimate on the signature page. Any future job
estimale thai varies from the UFC should be supported with proper documentation to
support that variance.    Click to add JPEG file




                                                        20
